Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   SOME OF NEW YORK’S CLAIMS
    FOR MEDICAID SUPPORTED
     EMPLOYMENT SERVICES
      WERE UNALLOWABLE



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Gloria L. Jarmon
                                               Deputy Inspector General
                                                  for Audit Services

                                                    September 2014
                                                     A-02-13-01004
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8M of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 New York claimed at least $23 million in Federal Medicaid reimbursement for supported
 employment services that were unallowable.


WHY WE DID THIS REVIEW

During a previous Office of Inspector General review on supported employment services—
vocational services for individuals with developmental disabilities— in another State, we
identified a significant number of services that were improperly submitted for Federal Medicaid
reimbursement. On the basis of these results, we decided that a review of New York’s supported
employment services was warranted.

The objective of this review was to determine whether the New York State Department of
Health’s (Health Department) claims for Medicaid reimbursement for supported employment
services complied with certain Federal and State requirements.

BACKGROUND

Supported employment services are ongoing support services and other appropriate services
needed to support and maintain individuals with developmental disabilities for whom
competitive employment at or above the minimum wage is unlikely and who, because of their
disabilities, need intensive ongoing support to perform in a work setting. Services are provided
in a variety of settings, particularly worksites where people without disabilities are employed,
and include activities needed to sustain paid work (e.g., supervision and training by job coaches).

In New York, Federal funding for supported employment services is provided through two
home- and community-based services waiver programs: the Office for People With
Developmental Disabilities and Bridges to Health waivers. The Health Department is required to
provide for initial evaluations and annual reevaluations of beneficiaries’ level-of-care needs.
Further, Federal regulations require that services be furnished under completed and approved
care and supported employment plans. In addition, providers must maintain complete and
accurate records to support services billed.

The Health Department is also required to claim reimbursement at the appropriate level-of-
support billing rate and ensure that services provided to beneficiaries receiving similar services
through the New York State Education Department (Education Department) are not claimed
under the Health Department’s waiver programs.

HOW WE CONDUCTED THIS REVIEW

For the period January 1, 2009, through June 30, 2012, we limited our review to Medicaid costs
claimed for supported employment services. From a total of approximately $171 million
($86 million Federal share) that the Health Department claimed, we reviewed a random sample
of 100 beneficiary-months of service. A beneficiary-month includes all supported employment
services for a beneficiary for 1 month.

Supported Employment Services in New York (A-02-13-01004)                                            i
WHAT WE FOUND

Some of the Health Department’s claims for Federal Medicaid reimbursement for supported
employment services did not comply with certain Federal and State requirements. Specifically,
the Health Department accurately claimed Medicaid reimbursement for all supported
employment services during 65 of the 100 beneficiary-months in our random sample. However,
the Health Department claimed Medicaid reimbursement for unallowable supported employment
services during the remaining 35 beneficiary-months.

The Health Department made claims for unallowable services because providers did not ensure
(1) that services claimed were properly billed as supported employment services, (2) that
supported employment services were provided only to beneficiaries with completed and
approved care and supported employment plans, (3) that supported employment services were
adequately documented, (4) that supported employment services were claimed at the appropriate
level-of-support billing rate, (5) that beneficiaries’ assessments and level-of-care evaluations
were documented, and (6) that beneficiaries were not eligible for similar services through the
Education Department. On the basis of our sample results, we estimated that the Health
Department improperly claimed at least $23,054,993 in Federal Medicaid reimbursement for
unallowable supported employment services.

WHAT WE RECOMMEND

We recommend that the Health Department:

    •   refund $23,054,993 to the Federal Government and

    •   ensure that it complies with certain Federal and State requirements by requiring providers
        to:

        o claim reimbursement only for documented supported employment services,

        o provide supported employment services only to beneficiaries for whom there is a
          completed and approved care and supported employment plan,

        o claim reimbursement at the appropriate level-of-support billing rate,

        o ensure and document that all beneficiaries approved for supported employment
          services have been assessed and evaluated to need the required level of care, and

        o ensure that all beneficiaries receiving similar services from the Education Department
          are not claimed under its waiver programs.




Supported Employment Services in New York (A-02-13-01004)                                        ii
HEALTH DEPARTMENT COMMENTS AND OUR RESPONSE

In written comments on our draft report, the Health Department partially agreed with our
recommendations and described actions it planned to take to address our findings and
recommendations. Under separate cover, the Health Department provided additional
documentation to support services for certain sampled beneficiary-months.

The Health Department disagreed with 14 of the 38 sampled items for which, in our draft report,
we determined that services did not comply with State and Federal requirements, including 3 for
which it disagreed with multiple deficiencies that we identified. Specifically, the Health
Department disagreed with our interpretations of requirements for which we based 14 of our
determinations as well as our determinations for 4 sample items.

The Health Department disagreed with our interpretations of requirements related to (1) how the
level-of-support billing rate methodology is calculated (six sampled items), (2) the waiver’s
requirement for beneficiaries to be competitively employed in the integrated community labor
market (five sampled items), and (3) the waiver’s prerequisite for a specific assessment form to
evaluate the need for the required level of care (two sampled items). Further, the Health
Department disagreed with our determinations that (1) a supported employment plan detailing
the beneficiary’s employment status was not in place (two sampled items), (2) a beneficiary did
not have a completed and approved care plan (one sampled item), and (3) a beneficiary was
receiving supported employment services through the Education Department (one sampled item).

After reviewing the Health Department’s comments and additional documentation, we maintain
that our findings and recommendations are valid for 10 of the 14 sampled items. For the
remaining four sampled items, we understand the Health Department’s position that supported
employment services provided were in accordance with the description of the service in the State
regulations and revised our report accordingly. One of these four sampled items had another
deficiency; therefore, we maintain that this sampled item is unallowable. For the sampled items
for which we maintain that our findings and recommendations are valid, we used the formula
described in State regulations (14 NYCRR § 635-10.5(d)(1)) to calculate the applicable level-of-
support billing rate. In addition, we used forms provided by the Health Department to assist in
our determinations. Also, section 4442.6 of CMS’s State Medicaid Manual indicates that a
level-of-care assessment must be included in the care plan. Further, 42 CFR § 441.302(c)
requires at least annual reevaluations of each beneficiary receiving waiver services. The Health
Department did not provide any new documentation to change our previous determinations.




Supported Employment Services in New York (A-02-13-01004)                                     iii
                                                     TABLE OF CONTENTS

INTRODUCTION ....................................................................................................................1

           Why We Did This Review ............................................................................................1

           Objective .......................................................................................................................1

           Background ...................................................................................................................1
                 The Medicaid Program .....................................................................................1
                 Home- and Community-Based Services Waivers Under the
                   Medicaid Program ..........................................................................................1
                 Supported Employment Services in New York ................................................2

           How We Conducted This Review.................................................................................3

FINDINGS ................................................................................................................................3

           Services Claimed Were Not Supported Employment Services ....................................4

           Services Not Provided in Accordance With Care Plan .................................................4

           Services Not Documented.............................................................................................5

           Services Not Claimed in Accordance With Applicable Level-of-Support
            Billing Rate ................................................................................................................6

           Services Not Provided in Accordance With Supported Employment Plan ..................6

           Level-of-Care Assessment Not Documented................................................................7

           Services Available Through Education Department.....................................................7

           Conclusion .................................................................................................................... 7

RECOMMENDATIONS ..........................................................................................................8

HEALTH DEPARTMENT COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 8
    Services Not Claimed in Accordance With Applicable Level-of-Support
     Billing Rate ................................................................................................................... 9
    Services Claimed Were Not Supported Employment Services ....................................... 10
    Services Not Provided in Accordance With Supported Employment Plan ..................... 10
    Level-of-Care Assessment Not Documented...................................................................11
    Services Available Through Education Department........................................................11



Supported Employment Services in New York (A-02-13-01004)                                                                                       iv
APPENDIXES

        A: Federal and State Requirements for Supported Employment Services .................. 13

        B: Audit Scope and Methodology................................................................................ 16

        C: Statistical Sampling Methodology .......................................................................... 18

        D: Sample Results and Estimates ................................................................................ 19

        E: Summary of Deficiencies for Each Sampled Beneficiary-Month .......................... 20

        F: Health Department Comments ............................................................................... 24




Supported Employment Services in New York (A-02-13-01004)                                                                     v
                                            INTRODUCTION

WHY WE DID THIS REVIEW

During a previous Office of Inspector General review on supported employment services—
vocational services for individuals with developmental disabilities—in another State, we
identified a significant number of services that were improperly submitted for Federal Medicaid
reimbursement. 1 On the basis of these results, we decided that a review of New York’s
supported employment services was warranted.

OBJECTIVE

Our objective was to determine whether the New York State Department of Health’s (Health
Department) claims for Medicaid reimbursement for supported employment services complied
with certain Federal and State requirements.

BACKGROUND

The Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with Federal requirements. The Health
Department administers New York’s Medicaid program.

Home- and Community-Based Services Waivers Under the Medicaid Program

Section 1915(c) of the Social Security Act (the Act) authorizes Medicaid home- and community-
based services (HCBS) waiver programs. 2 HCBS may be provided only to beneficiaries who a
State Medicaid agency determines would, in the absence of such services, require the Medicaid-
covered level of care provided in a hospital, nursing facility, or intermediate care facility for
persons with intellectual disabilities. 3




1
  Most of New Jersey’s Claims for Medicaid Supported Employment Services Were Unallowable (A-02-12-01009,
issued December 24, 2013).
2
 A State’s HCBS waiver program must be approved by CMS and allows a State to claim Federal reimbursement for
services not usually covered by Medicaid. HCBS are generally provided to Medicaid-eligible beneficiaries in the
community rather than in an institutional setting.
3
 Changes in terminology are based on Rosa’s Law (P.L. No. 111-256). For more information, see CMS Final Rule,
77 Fed. Reg. 29002, 29021 & 29028 (May 16, 2012).


Supported Employment Services in New York (A-02-13-01004)                                                     1
To be eligible for Federal Medicaid reimbursement, HCBS must be furnished under a written
plan of care (care plan) 4 and, on at least an annual basis, beneficiaries receiving HCBS must be
reevaluated. To be eligible for HCBS, a beneficiary’s care plan must include an assessment of
the services needed to prevent the beneficiary from requiring institutionalization. The care plan
must specify the medical and other services to be provided and their frequency.

Supported Employment Services in New York

In New York, Federal funding for supported employment services is primarily provided through
the Office for People with Developmental Disabilities (OPWDD) waiver program. 5 OPWDD
administers the OPWDD waiver, which provides services to individuals with intellectual and
developmental disabilities under a cooperative agreement with the Health Department.

New York’s waiver agreement with CMS defines supported employment services as ongoing
support services and other appropriate services needed to support and maintain individuals with
developmental disabilities for whom competitive employment at or above the minimum wage is
unlikely, and who, because of their disabilities, need intensive ongoing support to perform in a
work setting. 6 Services are provided in a variety of settings, particularly worksites where people
without disabilities are employed (e.g., supermarkets), and include activities needed to sustain
paid work (e.g., supervision and training by job coaches).

Supported employment services are billed by providers as a monthly fee that incorporates the
level of support provided, and documentation of services performed must be completed and
signed by a job coach. The level of support is established by providers using developmental and
demographic information submitted on a beneficiary’s DDP-2, Developmental Disabilities
Profile, an OPWDD form used to describe individuals added to OPWDD programs. The Health
Department must also ensure that similar services are not otherwise available to a beneficiary
through the Education Department. 7

For details on Federal and State requirements related to supported employment services, see
Appendix A.




4
 New York’s waiver agreement with CMS states that the care plan must be reviewed, signed, and approved by the
Medicaid service coordinator supervisor.
5
  Supported employment services are also provided under the Bridges to Health waiver program. However, these
services represented less than 1 percent of New York’s supported employment services claims. These claims were
included in our sample frame; however, none were selected as part of our random sample.
6
    See also CMS, State Medicaid Manual, § 4442.3.B.3.c.
7
 Through its Office of Adult Career and Continuing Education Services, the Education Department offers
vocational habilitation services similar to those offered by the Health Department to eligible beneficiaries.


Supported Employment Services in New York (A-02-13-01004)                                                        2
HOW WE CONDUCTED THIS REVIEW

For the period January 1, 2009, through June 30, 2012, we limited our review to Medicaid costs
claimed for supported employment services. From a total of approximately $171 million
($86 million Federal share) that the Health Department claimed, we reviewed a random sample
of 100 beneficiary-months of service. 8

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology, Appendix C contains our
statistical sampling methodology, and Appendix D contains our sample results and estimates.

                                                    FINDINGS

Some of the Health Department’s claims for Federal Medicaid reimbursement for supported
employment services did not comply with certain Federal and State requirements. Specifically,
the Health Department accurately claimed Medicaid reimbursement for all supported
employment services during 65 of the 100 beneficiary-months in our random sample. However,
the Health Department claimed Medicaid reimbursement for unallowable supported employment
services during the remaining 35 beneficiary-months.

Of the 35 beneficiary-months with supported employment services for which the Health
Department improperly claimed Federal Medicaid reimbursement, 7 contained more than 1
deficiency. Appendix E contains a summary of deficiencies, if any, identified for each sampled
beneficiary-month.

The Health Department made claims for unallowable services because the providers did not
ensure (1) that services claimed were properly billed as supported employment services, (2) that
supported employment services were provided only to beneficiaries with completed and
approved care and supported employment plans, (3) that supported employment services were
adequately documented, (4) that supported employment services were claimed at the appropriate
level-of-support billing rate, (5) that beneficiaries’ assessments and level-of-care evaluations
were documented, and (6) that beneficiaries were not eligible for similar services through the
Education Department. On the basis of our sample results, we estimated that the Health
Department improperly claimed at least $23,054,993 in Federal Medicaid reimbursement for
unallowable supported employment services.




8
    A beneficiary-month includes all supported employment services for a beneficiary for 1 month.


Supported Employment Services in New York (A-02-13-01004)                                           3
SERVICES CLAIMED WERE NOT SUPPORTED EMPLOYMENT SERVICES

Supported employment services include those individual service plan-specified services and/or
interventions required by the person to become employable and/or remain effectively employed
within the integrated community labor market 9 (14 NYCRR § 635-10.4(d)(3)). New York’s
waiver agreement with CMS states that supported employment services consist of intensive,
ongoing supports that enable participants for whom competitive employment at or above the
minimum wage is unlikely absent the provision of supports, and who, because of their
disabilities, need supports, to perform in a regular work setting.

During 12 beneficiary-months, the Health Department claimed reimbursement for services that
were not supported employment. Specifically:

    •   Competitive employment at or above minimum wage not maintained. During 9
        beneficiary-months in which providers billed for supported employment services, their
        records indicated that the beneficiaries were paid below minimum wage or the provider
        paid their salary.

    •   Integrated employment not maintained. During 1 beneficiary-month in which
        providers billed for supported employment services, their records indicated that the
        beneficiaries were employed at provider sites and, therefore, not within the integrated
        community labor market.

    •   Neither competitive nor integrated employment maintained. During 2 beneficiary-
        months in which providers billed for supported employment services, their records
        indicated that the beneficiaries did not have both competitive and integrated employment.

For 2 of these 12 beneficiary-months, we adjusted payment amounts to reflect allowable
prevocational services provided and recalculated the associated claims at the applicable (lower)
reimbursement rate.

SERVICES NOT PROVIDED IN ACCORDANCE WITH CARE PLAN

HCBS must be furnished under a written care plan subject to approval by the State Medicaid
agency (42 CFR § 441.301(b)(1)(i)). A care plan must specify the services to be provided, their
frequency, and the type of provider (§ 4442.6 of CMS’s State Medicaid Manual). In addition,
New York’s waiver agreement with CMS states that all waiver services will be furnished
pursuant to a written care plan and that Federal financial participation will not be claimed for


9
  We interpreted the term “integrated community labor market” to mirror the U.S. Department of Labor’s Office of
Disability Employment Policy’s description of “integrative employment.” The U.S. Department of Labor describes
integrated employment as “jobs held by people with the most significant disabilities in typical workplace settings
where the majority of persons employed are not persons with disabilities. In these jobs, the individuals with
disabilities earn wages consistent with wages paid to workers without disabilities in the community who perform the
same or similar work; the individuals earn at least minimum wage, and they are paid directly by the employer.” U.S.
Department of Labor, Office of Disability Employment Policy, accessed at
http://www.dol.gov/odep/topics/IntegratedEmployment.htm on February 20, 2014.


Supported Employment Services in New York (A-02-13-01004)                                                         4
waiver services that are not included in the care plan. Further, the waiver agreement requires
that the care plan be signed by the Medicaid service coordinator supervisor.

During 11 beneficiary-months, the Health Department claimed reimbursement for some
supported employment services that were not provided in accordance with the beneficiary’s care
plan. Specifically:

     •   Care plans missing or incomplete. During 6 beneficiary-months, providers claimed
         reimbursement for supported employment services provided to beneficiaries whose care
         plans were missing or incomplete (i.e., missing relevant sections).

     •   Services not included in care plans. During 4 beneficiary-months, providers claimed
         reimbursement for supported employment services not specified in beneficiaries’ care
         plans.

     •   Care plan not signed. During 1 beneficiary-month, the provider claimed reimbursement
         for supported employment services for a beneficiary whose care plan was not signed by
         the Medicaid service coordinator supervisor.

SERVICES NOT DOCUMENTED

States must have agreements with Medicaid providers under which providers agree to keep such
records as are necessary to fully disclose the extent of the services provided to individuals
receiving assistance under a State plan (§ 1902(a)(27) of the Act). In addition, States are
required to maintain documentation of services provided (2 CFR § 225, App. A § C.1.j.).

New York’s regulations require providers to prepare and maintain contemporaneous records
(18 NYCRR § 504.3(a)). 10 Also, providers may only claim reimbursement of supported
employment services performed for an eligible beneficiary who is employed and to whom the
provider has rendered, on separate days, at least two face-to-face documented supported
employment services in accordance with the beneficiary’s individual care plan and supported
employment plan (14 NYCRR § 635-10.5(d)(7)(i)). Further, OPWDD requires that service notes
must be signed and dated by the job coach who provided the service (OPWDD Administrative
memorandum (ADM) #2007-01).

During 7 beneficiary-months, the Health Department claimed reimbursement for some supported
employment services that were not adequately documented. Specifically:

     •   Face-to-face services not documented or performed. During 4 beneficiary-months, the
         required face-to-face meetings were not documented or performed.




10
  The date the note was written must be “contemporaneous” to the date the supported employment service was
provided. For our purposes, we used the State’s definition of “contemporaneous,” which it defines as “at the time
the service was delivered or shortly after” (OPWDD ADM #2007-01).


Supported Employment Services in New York (A-02-13-01004)                                                           5
     •   Service notes not signed or not signed contemporaneously. During 2 beneficiary-
         months, the service notes were not signed by the job coach or not signed
         contemporaneously (e.g., service note was signed 3 months after service date).

     •   Service notes not provided. During 1 beneficiary-month, providers did not maintain
         any service notes to support the services billed.

SERVICES NOT CLAIMED IN ACCORDANCE WITH
APPLICABLE LEVEL-OF-SUPPORT BILLING RATE

Supported employment services are reimbursed at a monthly service fee based, in part, on a
level-of-support (14 NYCRR § 635-10.5(d)(1)) determination. The level-of-support
determination is based on responses to questions on the DDP-2 form. If the required information
(e.g., information related to the beneficiary’s developmental capabilities) to calculate the level of
support is unavailable, the monthly service fee is reimbursed at the lowest fee level for the
appropriate region until the information can be collected.

During 6 beneficiary-months, the Health Department did not claim reimbursement for supported
employment services provided to beneficiaries in accordance with level-of-support billing rate
requirements. Specifically:

     •   Improper billing level. During 5 beneficiary-months, supported employment services
         were billed at a higher monthly service fee than the beneficiary’s DDP-2 form indicated.

     •   Billing level support not provided. The provider did not provide the DDP-2 form to
         support services billed for 1 beneficiary-month. 11

SERVICES NOT PROVIDED IN ACCORDANCE WITH
SUPPORTED EMPLOYMENT PLAN

Providers are required to develop and maintain a supported employment plan for each
beneficiary receiving supported employment services (New York’s OPWDD ADM # 2007-
01). 12 The plan must cover the time period of the payment claim and include a description of the
individualized supported employment services and the location of the service provided.

During 4 beneficiary-months, the Health Department claimed reimbursement for some supported
employment services that were not provided in accordance with a supported employment plan.
Specifically:




11
  For this beneficiary-month, we questioned the difference between the service fee billed and the service fee
associated with the lowest fee level for the appropriate area.
12
  New York’s waiver agreement with CMS states that OPWDD issues ADMs for waiver services that identify all
elements required for billing Medicaid.


Supported Employment Services in New York (A-02-13-01004)                                                       6
       •   Supported employment plans missing. During 2 beneficiary-months, providers
           claimed reimbursement for supported employment services provided to beneficiaries
           whose supported employment plans were missing.

       •   Services not described in supported employment plan. During 1 beneficiary-month,
           the supported employment plan did not list or describe the beneficiary’s job.

       •   Supported employment plan not in effect. During 1 beneficiary-month, the supported
           employment plan was not in effect during half of the beneficiary-month when services
           were claimed.

LEVEL-OF-CARE ASSESSMENT NOT DOCUMENTED

To be eligible for HCBS, which include supported employment services, a beneficiary’s care
plan must include a level-of-care assessment approved by the service coordinator that includes
the services needed to prevent the beneficiary from requiring institutionalization. 13 Each
beneficiary receiving HCBS must also have periodic reevaluations, at least annually, to
determine whether the beneficiary continues to need the level of care provided (42 CFR
§ 441.302(c)).

During 2 beneficiary-months, the Health Department claimed reimbursement for supported
employment services provided to beneficiaries for whom the associated provider did not provide
a level-of-care assessment.

SERVICES AVAILABLE THROUGH EDUCATION DEPARTMENT

Federal regulations and the waiver agreement require that States provide assurances to CMS that
supported employment services, if provided as habilitation services under an HCBS waiver, are
(1) not otherwise available to the beneficiary through a local educational agency under the
Individuals with Disabilities Education Act or the Rehabilitation Act of 1973 and (2) furnished
as part of expanded habilitation services (42 CFR § 441.302).

During 2 beneficiary-months, the Health Department claimed reimbursement for supported
employment services for beneficiaries who were simultaneously receiving similar services
through the Education Department.

CONCLUSION

On the basis of our sample results, we estimated that the Health Department improperly claimed
at least $23,054,993 in Federal Medicaid reimbursement for supported employment services that
did not comply with certain Federal and State requirements.

The Health Department made claims for unallowable services because providers did not ensure
(1) that services claimed were properly billed as supported employment services, (2) that

13
     Section 1915(c) of the Act, 42 CFR § 441.301(b)(1)(iii), and the State’s OPWDD waiver agreement with CMS.


Supported Employment Services in New York (A-02-13-01004)                                                        7
supported employment services were provided only to beneficiaries with completed and
approved care and supported employment plans, (3) that supported employment services were
adequately documented, (4) that supported employment services were claimed at the appropriate
level-of-support billing rate, (5) that beneficiaries’ assessments and level-of-care evaluations
were documented, and (6) that beneficiaries were not eligible for similar services through the
Education Department.
                                      RECOMMENDATIONS

We recommend that the Health Department:

     •   refund $23,054,993 to the Federal Government and

     •   ensure that it complies with certain Federal and State requirements by requiring providers
         to:

         o claim reimbursement only for documented supported employment services,

         o provide supported employment services only to beneficiaries for whom there is a
           completed and approved care and supported employment plan,

         o claim reimbursement at the appropriate level-of-support billing rate,

         o ensure and document that all beneficiaries approved for supported employment
           services have been assessed and evaluated to need the required level of care, and

         o ensure that all beneficiaries receiving similar services from the Education Department
           are not claimed under its waiver programs.

HEALTH DEPARTMENT COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Health Department partially agreed with our
recommendations and described actions it planned to take to address our findings and
recommendations. Under separate cover, the Health Department provided additional
documentation to support services for certain sampled beneficiary-months.

The Health Department disagreed with 14 of the 38 sampled items for which, in our draft report,
we determined that services did not comply with Federal and State requirements, including 3 for
which it disagreed with multiple deficiencies that we identified. Specifically, the Health
Department disagreed with our interpretation of requirements for which we based 14 of our
determinations, as well as our determinations for 4 sample items. 14

The Health Department disagreed with our interpretations of requirements related to (1) how the

14
  In the report section addressing the Health Department’s comments (following page), we did not separate the
State agency’s reasons for its disagreeing with our findings into separate subsections because the issues (i.e., our
interpretation of Federal and State requirements and our determinations) generally overlapped.


Supported Employment Services in New York (A-02-13-01004)                                                              8
level-of-support billing rate methodology is calculated (six sampled items), (2) the waiver’s
requirement for beneficiaries to be competitively employed in the integrated community labor
market (five sampled items), and (3) the waiver’s prerequisite for a specific assessment form to
evaluate the need for the required level of care (two sampled items). Further, the Health
Department disagreed with our determinations that (1) a supported employment plan detailing
the beneficiary’s employment status was not in place (two sampled items), (2) a beneficiary did
not have a completed and approved care plan (one sampled item), and (3) a beneficiary was
receiving supported employment services through the Education Department (one sampled item).

The Health Department’s comments appear as Appendix F.

After reviewing the Health Department’s comments and additional documentation, we maintain
that our findings and recommendations are valid for 10 of the 14 sampled items. For the
remaining four sampled items, we understand the Health Department’s position that supported
employment services provided were in accordance with the description of the service in the State
regulations and revised our report accordingly. One of these four sampled items had another
deficiency; therefore, we maintain that this sampled item is unallowable.

Services Not Claimed in Accordance With Applicable Level-of-Support Billing Rate

Health Department Comments

The Health Department stated that the beneficiary’s DDP-2 form for each of the 6 unallowable
sampled beneficiary-months that we disallowed supported the applicable level-of-support billing
rate at which the associated service was billed. The Health Department also offered to explain
its DDP-2 scoring process to show that its calculations were correct.

Office of Inspector General Response

We maintain that we used the correct (i.e., applicable) level-of-support billing rate formula in
accordance with State regulations (14 NYCRR § 635-10.5(d)(1)). In addition, using the
methodology that the Health Department provided to us, we established and used a hierarchy of
applicable DDP-2 forms to make our determinations. Specifically:

     •   During 4 sampled beneficiary-months (numbers 20, 73, 85, and 99), the DDP-2 form was
         completed more than 2 years before the corresponding service. According to the Health
         Department’s hierarchy of applicable DDP-2 forms, if a DDP-2 form is not completed
         within 2 years of the date of the supported employment service, that form must be
         disregarded, and the next applicable form within the 2-year period should be used. 15

     •   During 1 sampled beneficiary-month (number 9), the DDP-2 forms were completed more
         than 2 years after our sampled service. According to the Health Department’s hierarchy
         of applicable DDP-2 forms, the default billing rate is the lowest level of support for


15
  We calculated the level-of-support billing rate using the DDP-2 form considered the most applicable in
accordance with the hierarchy methodology.


Supported Employment Services in New York (A-02-13-01004)                                                  9
           claims for which all DDP-2 forms available were more than 2 years after the
           corresponding service.

       •   During 1 sampled beneficiary-month (number 53), the Health Department did not use the
           proper calculation methodology. Specifically, the Health Department used answers to
           questions under the “medical status” section of the DDP-2 form to calculate the level-of-
           support billing rate. We calculated the applicable level-of-support billing rate using the
           methodology described in State regulations.

Services Claimed Were Not Supported Employment Services

Health Department Comments

For 5 sampled beneficiary-months, the Health Department stated that the supported employment
services provided were in accordance with how these services are described in the State’s
regulations, and maintained that competitive and integrated employment standards were met.

Office of Inspector General Response

We understand the Health Department’s interpretation for four of these claims and made the
appropriate adjustments to the findings and recommendations. 16 For one sample item (number
20), the beneficiary received a monthly stipend and did not earn a minimum wage salary.
Therefore, we maintain that the services claimed were not supported employment services. We
defer to CMS as to how to handle the other three claims (numbers 11, 37, and 71), totaling $869
in Federal Medicaid reimbursement, because we continue to believe that the competitive and
integrated employment standards pertaining to these beneficiaries’ employment statuses do not
reflect the design and intent of the supported employment program.

Services Not Provided in Accordance With Supported Employment Plan

Health Department Comments

The Health Department disagreed with our determination that approved supported employment
plans were not provided for 2 sampled beneficiary-months. During 1 sampled beneficiary-
month, the Health Department stated that the beneficiary’s job description was detailed in the
supported employment plan. During another sampled beneficiary-month, the Health Department
stated that we should have used the date that the beneficiary’s supported employment plan was
signed rather than the plan’s effective date to determine if an approved supported employment
plan was in place during the time our sampled supported employment services were provided.

Office of Inspector General Response

We maintain that services in 2 beneficiary-months were not provided in accordance with the
supported employment plan. A supported employment plan must “include a description of the
individualized supported employment services and the location of the service provided”
16
     Three claims were adjusted because one claim (number 47) had another deficiency.


Supported Employment Services in New York (A-02-13-01004)                                          10
(New York’s OPWDD ADM # 2007-01). During 1 sampled beneficiary-month (number 47),
some of the service notes indicated that the beneficiary’s job entailed “packaging toys”;
however, this job description did not appear on the beneficiary’s supported employment plan.
The supported employment plan described the beneficiary’s job as a “lawn care worker/painter”
and made no reference to packaging toys. Regarding the other sampled beneficiary-month
(number 67), we maintain that the effective date—not the date the supported employment plan
was signed—is the date the plan goes into effect. Therefore, the sampled supported employment
services were not covered by an approved plan.

Level-of-Care Assessment Not Documented

Health Department Comments

The Health Department stated that a specific level-of-care assessment form is not required to
determine a beneficiary’s ICF/MR certification status. Further, the Health Department provided
a letter from CMS, dated December 2004, indicating that an “omission of the ICF/MR Level-of-
Care Eligibility Documentation (LCED) form does not automatically trigger a disallowance of
participation in the waiver.” The Health Department resubmitted care plans for the 2
unallowable sampled beneficiary-months (numbers 30 and 31) and provided LCED forms for
prior years.

Office of Inspector General Response

We maintain that the level-of-care assessments were not documented for the 2 sampled
beneficiary-months. Each beneficiary receiving HCBS must also have periodic reevaluations, at
least annually, to determine whether the beneficiary continues to need the level of care provided
(42 CFR § 441.302(c)). In addition, the waiver agreement states that the “… level of care
instrument for the HCBS waiver is identical to the level of care instrument used for ICF/MR”
(the LCED form). All LCED forms provided by the Health Department did not cover our 2
sampled beneficiary-months; therefore, no level-of-care assessments were documented.

Services Available Through Education Department

Health Department Comments

The Health Department stated that for 1 sampled beneficiary-month (number 60), the
beneficiary’s services were no longer provided by the Education Department. According to the
Health Department, the beneficiary was referred for extended supported employment services
provided under the Health Department’s waiver in June 2000.

Office of Inspector General Response

We maintain that the beneficiary’s services were available through the Education Department.
Supported employment services, if provided as habilitation services under an HCBS waiver, are
allowable if not otherwise available to the beneficiary through a local educational agency under
the Individuals with Disabilities Education Act or the Rehabilitation Act of 1973 (42 CFR



Supported Employment Services in New York (A-02-13-01004)                                      11
§ 441.302) (emphasis added). During the sampled beneficiary-month, service notes and the care
plan indicated that the beneficiary was receiving supported employment services provided by the
Education Department in accordance with the above-referenced Act during our service month.
Because services were available through the Education Department, supported employment
services covered under the Health Department’s waiver were unallowable.




Supported Employment Services in New York (A-02-13-01004)                                   12
              APPENDIX A: FEDERAL AND STATE REQUIREMENTS FOR
                     SUPPORTED EMPLOYMENT SERVICES

FEDERAL AND STATE REQUIREMENTS FOR ELIGIBILITY FOR
SUPPORTED EMPLOYMENT SERVICES

Section 1915(c) of the Act authorizes Medicaid HCBS waiver programs. A State’s HCBS
waiver program must be approved by CMS and allows a State to claim Federal reimbursement
for services not usually covered by Medicaid. HCBS are generally provided to Medicaid-eligible
beneficiaries in the community rather than in an institutional setting.

Section 1915(c) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(iii)) provide that
HCBS may be provided only to beneficiaries who have been determined would, in the absence of
such services, require the Medicaid-covered level of care provided in a hospital, nursing facility,
or intermediate care facility for persons with intellectual disabilities. In addition, Federal
regulations (42 CFR § 441.302(c)) require a State agency to provide for an initial evaluation of
the beneficiary’s need for the level of care that would be provided in an institution unless the
individual receives HCBS. The regulations further require at least annual reevaluations of each
beneficiary receiving HCBS.

Section 4442.6 of CMS’s State Medicaid Manual requires an assessment of the individual to
determine the services needed to prevent institutionalization that must be included in the care
plan. In addition, the care plan must specify the medical and other services to be provided, their
frequency, and the type of provider. No Federal financial participation is available under a
section 1915(c) waiver for HCBS furnished without a written care plan.

Pursuant to 42 CFR section 441.302(i), the State must assure CMS that prevocational,
educational, or supported employment services, or a combination of these services, if provided as
habilitation services under the waiver, are (1) not otherwise available to the individual through a
local educational agency under the Individuals with Disabilities Education Act or the
Rehabilitation Act of 1973 and (2) furnished as part of expanded habilitation services.

Section 4442.3.B.3.c of CMS’s State Medicaid Manual defines supported employment services
to include paid employment that (1) is for persons for whom competitive employment at or
above the minimum wage is unlikely and who, because of their disabilities, need intensive
ongoing support to perform in a work setting; (2) is conducted in a variety of settings,
particularly worksites in which persons without disabilities are employed; and (3) is supported
by any activity needed to sustain paid work by persons with disabilities, including supervision,
training, and transportation.

New York’s waiver agreement with CMS states that supported employment consists of intensive,
ongoing supports that enable participants for whom competitive employment at or above the
minimum wage is unlikely absent the provision of supports, and who, because of their
disabilities, need supports, to perform in a regular work setting.




Supported Employment Services in New York (A-02-13-01004)                                        13
Pursuant to 14 NYCRR § 635-10.4(d)(3), supported employment services include those
individual service plan-specified services and/or interventions required by the person to become
employable and/or remain effectively employed within the integrated community labor market.

FEDERAL AND STATE REQUIREMENTS FOR DOCUMENTATION NEEDED TO
SUPPORT SUPPORTED EMPLOYMENT SERVICES BILLED

Section 1902(a)(27) of the Act, 42 U.S.C. § 1396a(a)(27), mandates that States have agreements
with Medicaid providers under which providers agree to keep such records as are necessary fully
to disclose the extent of the services provided to individuals receiving assistance under a State
plan. The Office of Management and Budget Circular A-87, Cost Principles for State, Local,
and Tribal Governments, Att. A, section C.1.j (2 CFR § 225, App. A § C.1.j), requires States to
maintain documentation of services provided.

Providers enrolling in the Medicaid program agree to prepare and to maintain contemporaneous
records demonstrating the right to receive payment under the medical assistance program
(18 NYCRR § 504.3(a)). In addition, a provider may claim reimbursement of supported
employment services performed for an eligible beneficiary to whom the provider has rendered,
on separate days, at least two face-to-face documented supported employment services in
accordance with the beneficiary’s individual service plan and supported employment plan
(14 NYCRR § 635-10.5(d)(7)(i)).

OPWDD requires that the job coach who delivered the service must sign, provide his/her work title,
and include the date the service note was written, thus verifying that the service was delivered
(OPWDD ADM #2007-01). Further, the date on a service note must be contemporaneous to the
date the service was provided (OPWDD ADM #2007-01).

FEDERAL REQUIREMENTS FOR SUPPORTED EMPLOYMENT SERVICES BEING
PROVIDED IN ACCORDANCE WITH AN APPROVED CARE PLAN

HCBS, by Federal regulation, must be furnished under a written care plan subject to approval by
the State agency (42 CFR § 441.301(b)(1)(i)). In addition, New York’s waiver agreement with
CMS states that all waiver services will be furnished pursuant to a written care plan, and Federal
financial participation will not be claimed for waiver services that are not included in the
individual written care plan. Further, upon completion of the initial care plan, the Medicaid
service coordinator supervisor must review, sign, and approve the plan. Any time a significant
change is made to the care plan and portions are revised and rewritten, the supervisor must
review, sign, and approve the changes to the plan.

A care plan must specify the services to be provided, their frequency, and the type of provider
(§ 4442.6 of CMS’s State Medicaid Manual).




Supported Employment Services in New York (A-02-13-01004)                                         14
STATE REQUIREMENTS FOR SERVICES CLAIMED IN ACCORDANCE WITH
APPLICABLE LEVEL-OF-SUPPORT BILLING RATE

Supported employment services are reimbursed at a monthly supported employment service fee
based on an applicable level of support (14 NYCRR § 635-10.5(d)). The level of support is
established using developmental and demographic information on a beneficiary’s DDP-2. If the
required data is unavailable to calculate a person’s level of support, the monthly supported
employment service fee is reimbursed at the lowest fee level for the appropriate region until the
required data can be collected and entered into the data system.

STATE REQUIREMENTS FOR SERVICES BEING PROVIDED IN ACCORDANCE
WITH AN APPROVED SUPPORTED EMPLOYMENT PLAN

New York’s waiver agreement with CMS states that OPWDD issues ADMs for waiver services
that identify all elements required for billing Medicaid. According to OPWDD ADM #2007-01,
the supported employment agency is required to develop and maintain the supported
employment plan. The plan must cover the time period of the payment claim and include a
description of the individualized supported employment services and the location of the service
provided.




Supported Employment Services in New York (A-02-13-01004)                                       15
                       APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered the Health Department’s claims for Medicaid payments made in 263,738
beneficiary-months totaling $171,414,837 ($85,707,418 Federal share) for supported
employment services during the period January 1, 2009, through June 30, 2012.

The scope of our audit did not require us to perform a medical review or an evaluation of the
medical necessity for supported employment services claimed for reimbursement. Rather, we
limited our review of the Health Department’s internal controls over the waiver programs to
those applicable to the claims reviewed because our objective did not require an understanding of
all internal controls over the waiver programs.

We performed our fieldwork at 65 providers’ offices throughout New York from February
through April 2013. 17

METHODOLOGY

To accomplish our objective, we:

       •   reviewed applicable Federal and State Medicaid laws, regulations, and guidance;

       •   met with CMS financial and program management officials to gain an understanding of
           the waivers’ approval, administration, and assessment processes;

       •   met with Health Department officials to discuss administration and monitoring of the
           waiver programs;

       •   obtained from New York’s Medicaid Management Information System (MMIS) a
           sampling frame of 263,738 beneficiary-months with supported employment services for
           which the Health Department claimed reimbursement totaling approximately
           $171 million ($86 million Federal share) from January 1, 2009, through June 30, 2012; 18

       •   selected a simple random sample of 100 beneficiary-months from the sampling frame
           and, for each beneficiary-month:

           o determined whether contracted providers met New York qualification requirements to
             provide supported employment services,



17
     The 65 providers included 4 State-operated developmental centers.
18
  Our review allowed us to establish reasonable assurance of the authenticity and accuracy of the data obtained from
the MMIS file for our audit period. We also established reasonable assurance of the completeness of the data by
reconciling the claims data in the MMIS to the Health Department’s claim for reimbursement in the CMS-64.


Supported Employment Services in New York (A-02-13-01004)                                                        16
         o determined whether the beneficiary was assessed to be eligible for supported
           employment services under the waivers,

         o determined whether supported employment services were provided in accordance
           with an approved care plan,

         o determined whether supported employment services were provided in accordance
           with an approved supported employment plan,

         o determined whether supported employment services claimed were billed at the
           appropriate level-of-support rate, and

         o determined whether documentation supported the supported employment services
           billed;

     •   estimated the unallowable Federal Medicaid reimbursement paid in the total population
         of 263,738 beneficiary-months; 19 and

     •   discussed the results of our review with Health Department officials.

See Appendix C for the details of our statistical sampling methodology and Appendix D for our
sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




19
  For those beneficiary-months that included both allowable and unallowable services, we included only the portion
of the Federal Medicaid reimbursement associated with the unallowable services in our estimate.


Supported Employment Services in New York (A-02-13-01004)                                                       17
               APPENDIX C: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of beneficiary-months for which the Health Department received
Medicaid reimbursement for supported employment services provided during the period
January 1, 2009, through June 30, 2012. A beneficiary-month is defined as all supported
employment services for one beneficiary for 1 month.

SAMPLING FRAME

The sampling frame was an Access file containing 263,738 beneficiary-months totaling
$171,414,837 ($85,707,418 Federal share) for which the Health Department received Medicaid
reimbursement for supported employment services provided during the period January 1, 2009,
through June 30, 2012. We extracted the data for these beneficiary-months from the New York
MMIS.

SAMPLE UNIT

The sample unit was a beneficiary-month.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 beneficiary-months.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS), statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the beneficiary-months in our sampling frame. After generating
100 random numbers, we selected the corresponding frame items for our sample.

ESTIMATION METHODOLOGY

We used the OAS statistical software to calculate our estimates. We used the lower limit of the
90-percent confidence interval to estimate the overpayment associated with the unallowable
supported employment services in the beneficiary-months.




Supported Employment Services in New York (A-02-13-01004)                                     18
                   APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                                       Sample Details and Results


                                                                    No. of        Value of
                            Value of                 Value of     Beneficiary-   Unallowable
          Beneficiary-       Frame                    Sample      Months With     Services
           Months in        (Federal       Sample    (Federal     Unallowable     (Federal
            Frame            Share)         Size      Share)       Services        Share)
            263,738       $85,707,418       100       $32,888         35           $13,017



                   Estimated Value of Unallowable Services (Federal Share)
                    (Limits Calculated for a 90-Percent Confidence Interval)

                                Point estimate                  $34,331,949
                                 Lower limit                     23,054,993
                                 Upper limit                     45,608,905




Supported Employment Services in New York (A-02-13-01004)                                      19
                             APPENDIX E: SUMMARY OF DEFICIENCIES
                             FOR EACH SAMPLED BENEFICIARY-MONTH

                                              Legend
 1      Services claimed were not supported employment services
 2      Services not provided in accordance with care plan
 3      Services not documented
 4      Services not claimed in accordance with applicable level-of-support billing rate
 5      Services not provided in accordance with supported employment plan
 6      Level-of-care assessment not documented
 7      Services available through Education Department

Office of Inspector General Review Determinations for the 100 Sampled Beneficiary-Months

   Sample
 Beneficiary-   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency     No. of
   Month            1            2            3            4            5            6            7        Deficiencies
      1                                                                                                         0
      2                                                                                                         0
      3                                                                                                         0
      4                                                                                                         0
      5                                                                                                         0
      6                                                                                                         0
      7                                                                                                         0
      8                         X                                                                               1
      9                                                   X                                                     1
     10                                                                                                         0
     11                                                                                                         0
     12                                                                                                         0
     13            X                                                                                            1
     14                                                                                                         0
     15                                                                                                         0
     16                                                                                                         0
     17            X                                                                                            1
     18                         X                                                                               1
     19            X                                                                                            1
     20            X                                      X                                                     2
     21                                                                                                         0
     22                                                                                                         0
     23                                                                                                         0




Supported Employment Services in New York (A-02-13-01004)                                                                 20
   Sample
 Beneficiary-   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency     No. of
   Month            1            2            3            4            5            6            7        Deficiencies
     24                                                                                                         0
     25                                                                                                         0
     26                                                                                                         0
     27                                                                                                         0
     28                                                                                                         0
     29                                                                                                         0
     30                         X                                                   X                           2
     31                                                                             X                           1
     32                                                                                                         0
     33                                                                                                         0
     34                                                                                                         0
     35                                                                                                         0
     36                                                                                                         0
     37                                                                                                         0
     38                         X            X                         X                                        3
     39            X                                                                                            1
     40                                      X                                                                  1
     41                         X                                                                               1
     42                                                                                                         0
     43                         X            X                                                                  2
     44                                                                                                         0
     45            X                         X                                                                  2
     46                                                                                                         0
     47                                                                X                                        1
     48            X                                                                                            1
     49                                                                                                         0
     50                                                                                                         0
     51                                                                                                         0
     52                                      X                                                                  1
     53                                                   X                                                     1
     54                                                                                                         0
     55                                                                                                         0
     56                                                                                                         0
     57                                                                                                         0
     58                                                                                                         0
     59                         X                                                                               1
     60                                                                                          X              1



Supported Employment Services in New York (A-02-13-01004)                                                                 21
   Sample
 Beneficiary-   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency     No. of
   Month            1            2            3            4            5            6            7        Deficiencies
     61                                                                                                         0
     62                                                                                                         0
     63                                                                                                         0
     64                                                                                                         0
     65                                                                                                         0
     66                                                                                                         0
     67                                                                X                                        1
     68            X                                                                                            1
     69                         X                                                                               1
     70                                                                                                         0
     71                                                                                                         0
     72            X                                                                                            1
     73                                                   X                                                     1
     74                         X            X                                                                  2
     75                                                                                                         0
     76                                                                                                         0
     77                                                                                                         0
     78                                                                                                         0
     79                                                                                                         0
     80                                                                                                         0
     81            X                                                                                            1
     82                                                                                                         0
     83                                                                                                         0
     84                                                                                                         0
     85                                                   X                                                     1
     86                                                                X                                        1
     87                                                                                                         0
     88                                                                                                         0
     89                                                                                                         0
     90                                                                                                         0
     91                                                                                                         0
     92                                                                                                         0
     93                                                                                                         0
     94                                                                                                         0
     95                                                                                          X              1
     96                                                                                                         0
     97            X            X            X                                                                  3



Supported Employment Services in New York (A-02-13-01004)                                                                 22
   Sample
 Beneficiary-   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency   Deficiency     No. of
   Month            1            2            3            4            5            6            7        Deficiencies
     98                         X                                                                               1
     99                                                   X                                                     1
    100            X                                                                                            1
  Category
   Totals     12      11        7                          6            4            2            2            44
 35 Beneficiary-Months in Error




Supported Employment Services in New York (A-02-13-01004)                                                                 23
                      APPENDIX F: HEALTH DEPARTMENT COMMENTS 





            ==================~~ ~!~a~~~~ l~=================== 

             Howard A Zucker, M.D., J.D.
             Acting Commissioner of Health
                                                  HEALTH                                              Sue Kelly
                                                                                   Executive Deputy Commissioner




                                                                  May 21, 2014


            Mr. James P Edert
            Regional Inspector General for Audit Services
            Department ofHealth and Human Services
            Office of the Inspector General
            Jacob Javits Federal Building
            26 Federal Plaza, Room 3900
            New York, NY 10278
                                                                  Ref No. A-02-13-01004
            Dear Mr. Edert :

            Enclosed are the Department of Health's comments on the U.S. Department of Health and
            Human Services, Office of Inspector General Draft Audit Report #A-02- 13-01 004 entitled,
            " Some of New York' s C laims for Medicaid Supported Employment Services Were
            Unallowable."

            Thank you for the opportunity to comment.
                                                                  Sincerely,




                                                                  Michael J. Nazarko
                                                                  Deputy Commissioner
                                                                   for Admini stration
            Enclosure

            cc:      Jason A. Helgerson
                     James C. Cox
                     Diane Christensen
                     Lori Co nway
                     Robert Loftus
                     Joan Kewley
                     James Russo
                     Ronald Farrell
                     Brian Kiernan
                     El izabeth Misa
                     Ralp h Bielefeldt
                     OHIP Audit BML

                                                   HEALTH.NY.GOV
                                                   facebook.com/NYSDOH
                                                  twitter.com/HealthNYGov




Supported Employment Services in New York (A-02-13-01 004)                                                         24
                             New York State Department of Health 

                                        Comments on the 

                           Department of Health and Human Services 

                                   Office of Inspector General 

                            Draft Audit Report A-02-13-01004 entitled 

                            Some of New York's Claims for Medicaid 

                        Supported Employment Services Were Unallowable 


           The foll owing are the New York State Department o f Health 's (Department) comments in response
           to the D epartment of Health and Human Services, Office of Inspector General (OIG) Draft Audit
           Report A-02- 13-0 1004 entitled, " Some of New York's C laims for Medicaid Supported
           Employment Services Were U nallo wable."

           Recommendation #1:

           Refund $25, 177,394 to the Federal Government.

           Recommendation #2:

           E nsure that the Department complies with certain Federal and State requirem ents by requiring
           providers to:

               • 	 cla im reimbursement o nly for documented supported employment services,

               • 	 provide supported employment services o nly to beneficiaries for whom there is a completed
                   and approved care and su pp orted empl oyment plan,

               • 	 cla im reimbursement at the appropriate level-of-support bill ing rate,

               • 	 ensure and document that all beneficiaries approved for supported employ ment services
                   have been assessed and eval uated to need the required level ofcare, and

               • 	 ensure that all beneficiaries recei ving si milar services from the E ducation Department are
                   not claimed under its waiver programs.


           Response # I and #2:

           T he D epartment agrees to take necessary corrective acti ons to help ensure that Federal and State
           requirements are met. However, the Department does not agree that $25, 177,394 is the appropriate
           amount that sho uld be refund ed to the Federal Government.

           The Draft Audit Report identifies certain beneficiary months/ clai ms that contain one o r more of
           seven types of deficiencies, which therefore, makes t hem unallowable for reimburseme nt. The
           Department di sagrees with some of th e deficiencies noted by OIG. These are outl ined below by
           deficiency type. For each, we have pro vided informat io n and documentation su pp orting t he
           Department' s position. Given t he infor mation provided herein and the docum entat io n already




Supported Employment Services in New York (A-02-13-01 004)                                                         25
           provided to the auditors, we respectfully request each of the below referenced beneficiary
           months/c laims no longer be designated as being deficient, and that the amount to be refunded to the
           Federal Government be reduced appropriately. Following this, we describe the corrective actions
           that will be taken to help ensure that Federal and State requirements are met.

           Services Claimed Were Not Supported .Employment Services (SEMP)

           The draft audit report identifi.es 16 sample c laims/beneficiary months that contained this deficiency,
           stating that competitive employment at or above minimum wage was not maintained, integrated
           employment was not maintained, and neither competitive nor integrated employment was
           maintained. There are five claims/beneficiary months in which we disagree that they contained this
           deficiency.

           There is nothing in Federal or State law, rule or policy that requires that a person receiving
           supported employment maintain employment, or that this employment be competiti ve and
           integrated in the way the report is interpreting such terms.

           Federal guidance is provided in a Centers for Medicare and Medicaid Services (CMS) September
           2011 Informational Bulletin. In thi s Bulletin, CMS defines supported emplo yment as "ongoing
           supports to participants who, because of their disabilities, need intensive on-going support to o btain
           and maintain an individual job in competitive or customized employment, or self-employment, in
           an integrated work setting in the general workforce for which an individual is compensated at or
           above the minimum wage." The Office for People With Developmental Di sabilities (OPWDD)
           Home and Community-Based Services (HCBS) Waiver defines supported employment as "ongoing
           supports that enable participants, fo r whom competitive employment at or above the minimum
           wage is unlikely absent the provision of supports, and who, because of their disabilities, need
           supports, to perform in a regular work setting . Supported employment may include assisting the
           participant to locate a job or develop a job on behalf of the participant." Also, State regulations at
           14 New Yo rk Codes, Rules and Regulations (NYCRR)- Subpart 635-1 0 define supported
           employment as a program of appropriate staff and/or material supports for a person desiring to
           obtain, or be maintained in a competitive employment setting.

           Claim's #11 and #37:

           The aud itor's notes 1 for these c laims state that "the Benefic ia ry did not maintain
           competitive/ integrated employment, worked at the provider site" and "the beneficiary worked under
           an internship with salary paid by the Developmental Disability Services Office." The supports
           provided to these beneficiaries are w ithin the scope of allowable and Medicaid fundable supported
           employment services as defined by both CMS and New York State. There is certainly no ru le t hat
           prohibits a provider from hiring and pay ing an indivi dual with developmental di sabilities who
           utili zes HCBS supported employment services, and there is no Federa l or State rule or guidance that
           disqualifies employment supports provided to an indiv idual in such a job from Medicaid fu nding.




           1
            We were provided additional information from the auditors for each claim and each deficiency, which was ent it led
           "Auditor Explanation of Errors Cited". Here and in t he rest of the response, t he term "auditor' s notes" ref ers t o this
           additional information.


                                                                         2




Supported Employment Services in New York (A-02-13-01 004)                                                                               26
           Both beneficiaries in these claims participated in the Employment Training Program (ETP) which is
           a paid interns hip that utilizes discovery and job readiness to assist individuals wit h developmental
           disabilities in obtaining compet itive employment. As part of the paid internship, a customized
           employment approach is used to "carve" a job that matches the beneficiary' s interests and ski lls
           with the need s of a business. Job coaching supports are provided during the internship to assist the
           beneficiary in learning their job duties and being hired by the bu siness.

           The ETP program assisted both individuals in obtaining and maintaining competitive employment,
           and bo th were paid minimum wage. One individ ual (#I I) worked at a bakery located in the local
           community in the general workforce. Job development and jo b coaching supports were provided
           by the provider, who assisted the beneficiary in obtaining the internship; provided job coaching
           supports at the bakery so the beneficiary could learn specific j ob tasks and duties; and assisted the
           beneficiary in ultimately being hired as an employee of the bakery. The other indi vidual (#37) also
           participated in the ETP, utilizing discovery and job readiness to assist the indi vidua l to o btain and
           maintain competitive employment; the beneficiary was hired by the provider and earns at least
           minimum wage.

           ETP has been a very successful model for assisting individ uals with developmental disabilities to
           obtai n and maintain competitive employment whic h is why it is a strategy in the Transformation
           Agreement between OPWDD and CMS. Several bu sinesses that have hired ETP interns have
           indicated that they were init ially hesitant to hire a worker with developmental disabilities. The paid
           internship reduced risk for the business and provided an opportunity fo r the business to see that a
           person with developmental disabilities could be successful in the general workforce. The ETP paid
           internship meets both OPWDD and CMS definitions of supported employment.

           Claim #20:

           The auditor's notes fo r the finding state that "Beneficiary did not maintain competit ive
           employment, received a stipend not a salary. " This beneficiary is maintaining competitive
           employment worki ng at a college, and there is no CMS or OPWDD requi re ment that supportive
           employment requires that payment be structured as a salary rather than a stipend . This claim should
           be viewed as supported employment as the job and related supports are consistent with bo th the
           OPWDD and CMS defini tions of supported employment.

           Claim #47:

           The auditor's notes for the findin g stated that "Beneficiary did no t maintain competitive/i ntegrated
           employment, worked as part of an enclave at provider site," and "B eneficiary's salary paid by
           provider."

           As stated earl ier, the September 2011 CMS Informational Bulletin on employment related services,
           supported employme nt is d efined as " ongoing su pports to participants w ho, becau se of their
           disabilities, need inte nsive on-going support to obtain and maintain an individual jo b in competitive
           or customized employme nt, or self-employment, in an integrated work setting in the general
           workforce for which an indiv idual is compensated at or above t he minimum wage." In OPWDD' s
           H CB S Waive r supported employment is defined as "o ngoing supports that enable participants, for
           who m competitive employment at or above the minimum wage is unlikely absent the provision of
           supports, and who, because of their disabilities, need supports, to perform in a regular work setti ng .

                                                              3




Supported Employment Services in New York (A-02-13-01 004)                                                            27
           Supported e mployment may include assisting the participant to locate a job or develop a job on
           behalf of the participant." Also, in OPWDD's Regulatio n- 14 NYCRR- Subpart 635-1 0, supported
           employment is defined as a program of appropriate staff and/or material supports for a person
           desiring to obtain, or be maintained in a competitive e mployment setting.

           In this claim, the beneficiary is e ngaged in seasonal employment as a lawn care worker. The
           employment is in the community, the earnings are minimum wage, and documentation indicates
           that the job coach is assisting the beneficiary in obtaining additional employment.

           All this is consistent with both OPWDD and CMS guidance related to supported employment.
           While the beneficiary is employed by the provider, this is still considered supported employment
           due to the wage and the integrated setting. Also, as previously noted, there is no Federal or State
           guidance that prohibits a provider from hiring an individual with developmental disabilities w ho
           utilize s HCBS supported employment services.

           Claim #71:

           The auditor' s notes for the finding state that "Beneficiary did not maintain competitive/integrated
           employment. Beneficiary works und er a program developed by provider solely for developmentally
           disabled individuals and is paid a salary by provider."

           As stated earlier, in the September 20 11 CMS Informati onal Bulletin on employment related
           services, supported employment is defined as "ongoing supports to participants who, because of
           their disabilities, need intensive on-going support to obtain and maintain an individual job in
           competitive or customized employment, o r self-employment, in an integrated work setting in the
           general workforce for which an individual is compensated at or above the minimum wage" . In
           OPWDD's HCBS Waiver, supported employment is defined as "ongoing supports that enable
           participants, for whom competitive e mployment at o r above the minimum wage is unlikely, absent
           the provision of supports, and who, because of the ir di sabil ities, need supports, to perform in a
           regular work setting. Supported employment may include assisting the participant to locate a job or
           develop a job o n behalf of the participant." In OPWDD 's Regulatio n - Part 635. 10, supported
           employment is defined as a program of appropriate staff and/or material supports for a person
           desiring to obtain, o r be ma intained in a competitive employment setting . Also, there is no Federal
           or State guidance that prohibits providers from hiring and paying indi vi duals with developmental
           disabilities who utili ze HCBS supported employment services.

           The beneficiary in thi s cla im is an e mployee of the provider and maintained compett ttve
           employment above minimum wage, working 35 ho urs a week as a messenger. The j ob and related
           supports is consistent with both OPWDD and CMS guidance re lated to supported employment.
           Please see Attachment A for more inform ation regardi ng this issue for these claims/beneficiary
           months. This attac hment, and the other attachments identified, w ill be provided to DHHS - OIG
           under separate cover. Based on this information, a nd the other informati on submitted du ring the
           course of the audit, we r espectfu lly request that this deficiency be removed for all five
           claims/beneficiary months.

           The above responses provide sufficient information to document that the beneficiary month/claims
           are indeed supported employment services. Addi tionally, the Department believes that the policy


                                                             4




Supported Employment Services in New York (A-02-13-01 004)                                                          28
           and programmatic implications of these deficiencies are significant, especially those related to the
           internship program:

                • 	 If paid internship programs were not viewed as supported employment, over 600 interns
                    could lose their jobs as providers wou ld have no means to bill for this service. These
                    services could not be billed as pre-vocational as an alternative because the job coaching
                    supports that these 600 individuals are receiving are related to specific job tasks and these
                    individuals are also earning minimum wage, all of which is inconsistent with the definition
                    of prevocational services. This would be inconsistent with CMS and OPWDD efforts to
                    increase competitive employment outcomes for people with developmental disabilities.

                • 	 The implication of not viewing certain claims (e.g. #37) as supported employment is that
                    many provider agencies would no longer be ab le to hire people with developmental
                    disabilities on their payroll performing a number of job duties in integrated settings where
                    they earn at or above minimum wage. Individuals w ith developmental disabilities who are
                    currently employed would lose their job coaching supports and likely their jobs. These
                    individuals would probably utilize more costly day habilitation services. This would also
                    have the effect of reducing the number of people with developmental disabilities who are
                    engaged in competitive employment thus impacting OPWDD employment goals and efforts
                    to implement the Transformation Agreement.


           Services Not Provided in Accordance with Supported Employment Plan

           The draft audit report identifies four sample c laims/beneficiary months that contains this deficiency.
           For two of them (#47 and #67) we disagree that a Supported Employment Plan was not in place.

           Clai m #47:

           The claim/beneficiary month had a deficiency because, as stated in the report " during one
           beneficiary-month, the supported employment plan did not list or describe the beneficiary ' s job."
           We are providing a supported employment plan covering the claim/beneficiary month that states the
           beneficiary' s job.

           C laim #67:

           The claims/beneficiary month had a deficiency because, as stated in the report " during one
           beneficiary-month, the supported employment p lan was not in effect during half of the benefici ary­
           month when ser vices were claimed ." The beneficiary month is April 2009 . There are two
           supported employment plans that we are providing, one in effect up to April 14, 2009, and the other
           plan was effective April 16, 2009; therefore, there is a lag of only a day, and not half the month.
           The auditors may have, in error, used the "effective date" stated on the plan, instead of considering
           the date the plan was reviewed and signed.

           Please see Attachment B for more information regarding the issue for these claims/beneficiary
           months. This attachment, and the other attachments identified, will be provided to DHHS - OIG
           under separate cover. Based on this information, and the other information submitted during the


                                                              5




Supported Employment Services in New York (A-02-13-01 004)                                                           29
           audit, we respectfully request that this deficiency be removed for the above claims/beneficiary
           months.

           Level of Care Assessment not Documented

           The draft audit report identifies two sampl e claims/beneficiary mo nths that contain this deficiency
           (#3 1 and #30), with which we disagree.

           The auditor's notes provided to us states the following reaso n for the disallowance in this category:
           "Interim Care Fac ility/Mental Retardation (ICFIMR) certification not provided". Per the attached
           letter from CMS, a certain form, e.g., ICFIMR - Level of Care Eligibility D etermi nation (LCED)
           form is not required. CMS stated that it would " .. . review a participant's file including plans of
           care, budgets, prior LCEDs, HCBS waiver application to substantiate participation or continued
           participation in the waiver."

           We are uncertain if the auditors were looking for a particular document. However, the auditors
           were provided many documents, including plans of care (these claims were not cited as having an
           error in that category), Developmental Disabilities Profile (DDP-2's), etc., which we think
           appropriately demonstrates the need for continued participatio n in th e waiver.

           Please see Attachment C for more information regarding the issues for these claims/beneficiary
           months. T his attachment, and the other attachments identified, will be provided to DHHS - OIG
           under separate cover. Based on this information, and the other information submitted during the
           audit, we respectfully request that this deficiency be removed for the above two claims/beneficiary
           months.

           Services Available Through the Education Department

           The draft aud it report ide ntifies two sample claims/benefic iary months that contain this defi ciency.
           For one of these claims/beneficiary months (#60) we are subm itting documentation (Education
           Department referral letter), to support that the services were no longer provided by the Education
           Department.

           P lease see Attachment D for more informat ion regarding the issue for this claim/beneficiary month .
           Thi s attachment, and the other attachments identifie d, will be provided to DHHS - OIG under
           separate cover. Based o n thi s information, and the other information submitted during this audit,
           we respectfully request that this deficiency be removed for the above claim.


           Services not Claimed in Accordance with Applicable Level of Support Billing Rate

           The draft audit report identifies six sample claims/be neficiary months (#9, #20, #53 , #73, #85 and
           #99) that contain this deficiency.

           For all ofthese claims/ beneficiary months, we submitted documentation to the auditors in response
           to the preliminary findings, to show that the beneficiary's DDP-2 form supported the monthly
           service fee the service was billed at (and all DDP-2' s were provided). We are resubmitting them
           again and would be happy to provide a n explanatio n ofthe calculation of the rate if necessary .

                                                              6




Supported Employment Services in New York (A-02-13-01 004)                                                            30
           Please see Attachment E for more information regarding this issue for these c laim s/beneficiary
           months. Thi s attachment, and the other attachments identified, will be provided to DHHS - OIG
           under separate cover. Based on this information, and the other information submitted during the
           audit, we respectfully request that thi s deficiency be removed for all six of the above
           claims/beneficiary months.


         !:] Services not Provided in Accordance with Care Plan
           The draft audit report ide ntifies 11 sample claims/beneficiary mo nths that contain this error. For
           one ofthese claims (# 53) we do not agree it contains this deficiency.

           We are submitting documentation to sho w that an acceptable care plan was in place. There is an
           addendum to the initial Care Plan, and this addendum covers the claim/beneficiary month and
           provides evidence that the services were provided in accordance with a care plan.

           Please see Attachment F for more information regarding these issues for this claim/beneficiary
           month . This attachment, and the other attachments identified, will be provided to DHHS - OIG
           under separate cover. Based on this informat ion, and the other information submitted during this
           audit, we respectfully request that this defici ency be removed for the above claim/beneficiary
           month.

           CORRECTIVE ACTIONS:

           For those deficiency categories where there are remaining errors w ith the claim(s)/ benefic iary
           month(s), the Depart ment and OPWDD will continue to collaborate o n enhancing Quality
           Improvement (QI) efforts to strengthen policies and procedures for overseeing and administering
           the program. The Department and OPWDD continue to have quarterly meetings to di scuss QI
           issues and opportunities, maintain a Quality Work Plan and meet quarterly to discu ss its
           implementation. Work plan activities will incorporate researching possible enhancements to
           oversight practi ces as well as other potential improveme nts. OPWDD will also incorporate training
           on proper supported employment billing and documentation into regio nal and statewide provider
           meetings and trainings ( in part addressing the issue of ensuring that SEMP c laims are SEMP
           services).

           The redesigned Department/ OPWDD I ndividual Service Plan (ISP) review process incl udes annual
           OPWDD review of a D epartment-generated, statistically val id sample of ISP's. The Department
           directly performs the fiscal component for a sub-sample of the ISP's, verifyi ng that o nly waiver
           services documented in the ISP are billed t o Medicaid (as evidenced in the Data Mart Claim Detail
           Report). Separate from this Departme nt review, OPWDD perform s a 5 percent sampl e review of
           ISPs statewide, reviewing the quality of the plan and the serv ices which individuals receive. Thi s
           review is conducted as a part ofOPWDD' s ongoing survey process of provider agencies. OPWDD
           reports the results of this review as performance measures in the CMS 372 report.

           OPWDD a lso conducts desk reviews of eMedNY data based on indicators of inappropriate
           billing/aberrant claims. A number of system edits exist, however, desk reviews are perfo rmed to
           ensure that syste m edits are functioning as expected or to check for items that conflict w ith
                                                              *Office of Inspector General Note: This find ing for
                                                            7 Sample #53 was removed prior to the issuance of the
                                                              draft report and is not identified within the report.




Supported Employment Services in New York (A-02-13-01 004)                                                        31
           OPWDD regu lations or policies but for which system edits have not been put in place. OPWDD
           has had a number of contracts with provider agencies, identified in its Waiver Agreement as
           Organized Health Care Delivery System (OHDS). Under the OHDS, a provider agency enters into a
           contract with OPWDD to provide a service. Once the service is prov ided, the agency is reimbursed
           by OPWDD for the service under the terms of the contract. OPWDD then bills Medicaid for the
           service, and therefore, OPWDD is identified as the provi der of record for the services. Desk
           reviews are also conducted for these billings.

           Furthermore, the Office of the Medicaid Inspector General (OMIG) and OPWDD ' s Office of Audit
           Services wi ll conduct statewide audits to ensure that documentation is available to support the
           services billed and services are provided pursuant to a written plan of care. The OMIG is working
           with OPWDD on the protocols and these audits wi ll commence after the audit protocols are
           finalized.




                                                           8




Supported Employment Services in New York (A-02-13-01 004)                                                     32
